                          Department of the Interior
                         Office of Inspector General




           AUDIT REPORT


       U.S. Fish and Wildlife Service Federal
         Assistance Grants Administered
             by the State of Oklahoma,
       Department of Wildlife Conservation,
     From July 1, 2003 Through June 30, 2005




Report No. R-GR-FWS-0019-2005     October 2006
                   United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                October 23, 2006

                                     AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Grants Administered
           by the State of Oklahoma, Department of Wildlife Conservation, From July 1, 2003
           Through June 30, 2005 (No. R-GR-FWS-0019-2005)

        This audit report presents the results of our audit of costs incurred by the State of
Oklahoma (state), Department of Wildlife Conservation (Department), under Federal Assistance
grants from the U.S. Fish and Wildlife Service (FWS). The audit included total reported outlays
of approximately $26.1 million on FWS grants that were open during the state fiscal years
(SFYs) ended June 30 of 2004 and 2005 (see appendix 1). The audit also evaluated Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

        We found that the Department generally complied with applicable grant accounting and
regulatory requirements for administering its Federal Assistance grants. We also questioned
$19,275 in costs (federal share) and identified issues concerning in-kind contributions,
certification of license holders, and program income.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 2 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
January 21, 2007. Your response should include information on actions taken or planned, target
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Robert Leonard, at 916-978-5646 or me at 703-487-5345.

cc:   Regional Director, Region 2, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife restoration programs. The Acts allow FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the state
fish and game department.

Objectives
Our audit objectives were to determine whether the Department:

      • claimed the costs incurred under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and grant agreements;

      • used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      • reported and used program income in accordance with federal regulations.

Scope
The audit work included claims that totaled approximately $26.1 million on 73 FWS grants that
were open during SFYs ended June 30 of 2004 and 2005 (see appendix 1). We performed our
audit at Department headquarters in Oklahoma City, Oklahoma. We visited four regional
offices, four wildlife management areas, two fish hatcheries, and one research lab (see appendix
2). This audit was performed to supplement, not replace, the audits required by the Single Audit
Act of 1984, as amended, and the Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and performed other auditing
procedures that we considered necessary under the circumstances. We examined the evidence
supporting selected expenditures charged to the grants by the Department, interviewed
Department employees to ensure that personnel costs charged to the grants were supportable, and
determined whether the Department used hunting and fishing license revenues solely for its sport
fish and wildlife program purposes. To the extent possible, we relied on the work of the certified

1
    As amended 16 U.S.C. §§ 669 and 777, respectively.


                                                         2
public accounting firm that performed the SFYs 2004 and 2005 Single Audits to avoid
duplication of audit effort. We did not evaluate the economy, efficiency, or effectiveness of
Department operations.

We selected a judgmental sample of transactions for substantive testing based on an initial
assessment of risk. We reviewed transactions and supporting documentation related to
purchases, other direct costs, drawdowns of reimbursements, in-kind contributions, program
income, equipment, and other property. We did not project the results of substantive tests to the
total population of recorded transactions. We also reviewed the financial management systems
for labor and license fees to identify the relevant internal controls over transactions recorded in
those systems and to test the operation and reliability of those controls.

Prior Audit Coverage
On September 9, 2002, we issued audit report no. 2002-E-0012, “Costs Claimed by the State of
Oklahoma Department of Wildlife Conservation, Under Federal Aid Grants from the U.S. Fish
and Wildlife Service from July 1, 1996 through June 30, 1998.” We followed up on all
recommendations and found that they had been resolved and implemented.

Finley & Cook, PLCC issued single audit reports on the Department for SFYs 2004 and 2005.
In our review of the single audit reports, we found that the Department Federal Assistance Sport
Fish and Wildlife Restoration grants were considered major programs and were selected for
compliance testing in both the SFY2004 and SFY2005 single audits. Neither report included any
findings related to Department FWS Federal Assistance grants.




                                                 3
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance and that state hunting and fishing
license revenues were used solely for the Department’s fish and wildlife program activities.

We also identified the findings listed below that require attention by the FWS, including $19,275
in questioned costs (federal share). We discuss these findings in more detail in the Findings and
Recommendations section.

       Out of period costs. About $25,700 of third party in-kind contributions under a Federal
       Assistance grant were not valid obligations of the grant period.

       License certification weaknesses. The 2003 and 2004 license certifications did not
       include adjustments to eliminate all of the lifetime hunting and fishing licensees who no
       longer remain license holders.

       Program income incorrectly reported. Program income in the amount of $1,736 from
       the lease of a radio tower on lands funded under a Federal Assistance grant was not
       applicable to the grant.

Findings and Recommendations

A.     Out of Period Costs

       The Department claimed about $258,900 of third party in-kind contributions under the
       Oklahoma Boating Access Facilities Grant F-45-D-19. States may use such in-kind
       contributions as their matching costs on Federal Assistance grants. However, $25,700
       ($19,275 federal share) of the contributions were not valid obligations because the
       Muskogee City-County Port Authority had incurred construction costs prior to the
       effective date of the grant, without written approval by the FWS to do so. The
       construction costs on the Three Forks Harbor project (phase 1) were incurred in January
       and February 2004, outside of the grant period, which was from March 1, 2004 through
       February 28, 2005. As a result, we questioned the approximately $25,700 of third party
       in-kind contribution costs that were outside the grant period.

       The Code of Federal Regulations (Title 43 C.F.R. §12.63(a)) allows a grantee to charge
       to the grant only those costs resulting from obligations of the funding period, when a
       funding period is specified. Section 12.43 defines obligations as transactions, such as
       orders placed and goods and services received, in a given period that require payment by
       the grantee during the same or a future period. In addition, Title 2 C.F.R. Part 225,



                                                4
Appendix B, item 31, states that costs incurred prior to the effective date of the award are
allowable only with the awarding agency’s written approval.

The Director disagreed with the finding and cited FWS guidance in an August 30, 2002
letter. The letter states that approved grant activities which “have not been accepted for
payment because work is incomplete, substandard or otherwise not acceptable for
payment at the end of a grant segment should be listed as a continuing activity in the
subsequent documents until payment for the approved work is complete.” We do not
believe this letter authorizes expenditures prior to the start of a grant. Rather, the letter
appears to allow for a portion of the incomplete work in one grant segment to be included
in the subsequent grant segment. Alternatively, the Department could have requested
FWS to amend the completion date of the previous grant segment (F-45-D-18).

The Federal Assistance Coordinator told us this condition should not occur in the future
because the Department’s most recent boating access grant (F-45-D-20) has 4-year grant
period. He stated all the grant project work should be completed within this time frame.

Recommendations

We recommend that FWS require the Department to:

1. resolve the $25,700 of questioned out of period costs ($19,275 federal share) that
   were charged to grant F-45-D-19; and

2. ensure that costs claimed as third party in-kind contributions are incurred within the
   grant period.

Department Response

The Department stated that they continue to believe that the questioned out-of-period
costs identified above are allowable costs because grant F-45-D-19 was a continuation of
grant F-45-D-18. It stated that although the contractor services occurred during the grant
F-45-D-18 period, the contractor submitted the invoice for payment after the grant F-45-
D-18 period ended and the F-45-D-19 period began. It also stated that such submissions
were an accepted practice in the administration of multi-year agreements. It further
stated that they interpreted the effective date of the award to mean the receipt date FWS
affixed to their Application for Federal Assistance because the application offers the
Department the only opportunity to apply for pre-agreement costs.

FWS Response

FWS officials stated that costs incurred prior to the effective date can be approved as pre-
agreement costs if the activities were necessary and reasonable for accomplishing the
overall grant objectives. It stated the grant documentation did not include the pre-
agreement cost requests due to an administrative error, and the region would have
approved the questioned out-of-period costs as part of grant F-45-D-19 because the
activities were eligible for accomplishing the grant objectives.


                                          5
     OIG Comments

     Based on the FWS response, we consider these recommendations unresolved. Additional
     information is needed in the corrective action plan concerning the specific actions taken
     or planned to resolve the finding and implement the recommendations.

B.   License Certification Weaknesses

     The Department’s annual hunting and fishing license certifications for license years
     ended June 30 of 2003 and 2004 did not include adjustments to eliminate all lifetime
     licensees who no longer remain license holders. The Department completed a death audit
     in 2001 for all lifetime license holders and subsequently reduced the June 30, 2001
     certification by 1,980 licenses. The Department did not make any such adjustments for
     the 2003 and 2004 license certifications.

     The 2003 and 2004 license certifications did include adjustments to eliminate “senior”
     lifetime license holders who may no longer be living. The Department’s Administrative
     Services Chief reduced the total number of senior lifetime license holders by 3.1 percent
     in both the 2003 and 2004 certifications. The 3.1 percent adjustment factor used resulted
     from a 1994 survey that may not reflect current conditions.

     The Code of Federal Regulations (Title 50 C.F.R. §§ 80.10 (a) and (b)) states that
     information concerning the number of persons holding paid state hunting and/or fishing
     licenses in the preceding year shall be furnished to FWS, and that the information shall be
     certified as accurate by the director of the state fish and wildlife agency. Also, Section
     80.10 (c)(3) states that licenses valid for more than 1 year may be counted in each of the
     years for which they are valid provided that sampling or other techniques are used to
     determine whether the licensee remains a license holder in the year of certification. In
     addition, the Fish and Wildlife Service Manual (522 FW 2.7(1), Grantee Administration)
     recommends that surveys to determine and adjust for duplicate license holders be
     conducted every 5 years or sooner, if there is a change in the license structure.

     Department officials stated they believed the death audits were required only every 5
     years and that they had planned to complete another such audit in 2006, after which they
     would again reduce the number of lifetime license holders in the certifications. They also
     stated that they believed the use of the 3.1 percent adjustment factor to eliminate senior
     lifetime license holders who may no longer be alive each year was “conservative”.

     Because the state receives its apportionment of grant funds based in part on the number
     of license holders, we believe that accurate license counts are necessary to assure that
     each state receives its fair share of funds. The number of paid licenses reported by the
     Department could be overstated because the 2003 and 2004 certifications were not based
     on a current death audit or a current adjustment factor to eliminate those license holders
     who may no longer be alive.




                                              6
     The Director told us that he believed that appropriate audits and reductions were being
     made. To resolve the issue, he did propose that the death audits of lifetime licensees
     could be done every 3 years, instead of every 5 years.

     Recommendations

     We recommend that FWS require the Department to:

     1. conduct a death audit in 2006 and reduce the number of lifetime license holders in the
        June 30, 2006 certification accordingly; and

     2. conduct a new survey and, if necessary, revise the 3.1 percent adjustment factor
        currently being used to eliminate the senior lifetime license holders who may no
        longer be alive.

     Department Response

     The Department concurred with the audit recommendations. It stated that a death audit
     was conducted by an outside consultant in May 2006 for all lifetime license holders
     (including the senior lifetime license holders) and that the deceased individuals were
     removed from the number of license holders to be certified. It also stated that in lieu of
     using the 3.1 percent adjustment factor to eliminate senior lifetime license holders, they
     will now perform death audits of all lifetime license holders every 3 years instead of
     every 5 years.

     FWS Response

     FWS stated that the Department has complied with both report recommendations and
     believed that no further action was necessary.

     OIG Comments

     Based on the FWS response, we consider the recommendations resolved, but not
     implemented. While the Department has taken steps to eliminate those lifetime license
     holders who may no longer be alive from the 2006 certification, additional information is
     needed in the corrective action plan verifying FWS reviewed and accepted both the
     results of the Department’s May 2006 death audit and the Department’s plans to address
     future certifications.

C.   Program Income Incorrectly Reported

     The Department incorrectly reported program income from the lease of a radio tower on
     lands funded under the 2005 Northeast Region Wildlife Management Areas Grant W-
     139-M-21. The Department received five quarterly lease payments, totaling $8,682, in
     June, September, and November of 2004 and in April and May of 2005. The Department
     reported the entire amount as program income under grant W-139-M-21, for which the
     grant period was July 1, 2004 through June 30, 2005. One payment should have been


                                              7
applied in part to grant W-139-M-20 (for income of $578 received for the lease of the
radio tower in June 2004) and one payment should have been applied in part to W-139-
M-22 (for income of $1,158 received for the lease of the tower in July and August 2005).
Thus, $1,736 of the program income was outside the grant period.

The Code of Federal Regulations (Title 43 § 12.65 (b)) defines program income as gross
income received by the grantee or sub-grantee directly generated by a grant supported
activity, or earned only as a result of the grant agreement during the grant period. Also,
Section 12.65 (g) states that, ordinarily, program income shall be deducted from total
allowable costs to determine the net allowable costs. Grant W-139-M-21 states that
program income will be accounted for using the deductive method.

Neither the Federal Assistance staff nor the accounting staff properly allocated the lease
payments to the appropriate grant period. We believe this condition occurred because the
Department’s Miscellaneous Income Procedures do not specify the need for program
income from grant supported activities to be recognized under the proper grant period.

As a result, program income and net allowable grant costs are incorrect for affected
grants in 2004, 2005, and 2006 as follows:

   • the program income for grant W-139-M-21 was overstated by $1,736 and net
       allowable grant costs were understated by the same amount;

   • the program income received for the 2004 grant (W-139-M-20) and 2006 grant
       (W-139-M-22) are understated by $578 and $1,158 respectively, resulting in an
       overstatement of the net allowable grant costs for the 2004 and 2006 grants by
       $1,736.

Recommendations

We recommend that FWS require the Department to:

1. resolve the $1,736 of program income improperly charged to grant W-139-M-21 and
   the resultant effect on net allowable grant costs for grants W-139-M-20 and W-139-
   M-22 and

2. revise its Miscellaneous Income Procedures to help preclude such errors from
   occurring in the future.

Department Response

The Department agreed that the quarterly payment in question should have been credited
to grant W-139-M-20, but stated the payment was not received in time and was
subsequently credited to the grant W-139-M-21. It also stated they reported all of the
approximately $8,700 as program income under grant W-139-M-21 because they did not
have procedures available to credit payments against closed grants. It further stated that


                                         8
although the amount of program income in question was outside the grant segment, all of
the income was properly reported to the Northwest Region Wildlife Management Areas
Grants.

FWS Response

FWS stated that they would work with the Department during the resolution phase to help
preclude such errors from occurring in the future. It also stated that the resolution will be
included in the corrective action plan.

OIG Comments

We consider the recommendations unresolved and unimplemented because the FWS did
not address the audit recommendations. Additional information is needed in the
corrective action plan concerning the specific actions taken or planned to resolve the
finding and to implement the recommendations.




                                         9
                                                              Appendix 1
                                                                Page 1 of 2
            OKLAHOMA DEPARTMENT OF WILDLIFE CONSERVATION
                FINANCIAL SUMMARY OF REVIEW COVERAGE
                   JULY 1, 2003 THROUGH JUNE 30, 2005
Grant          Grant           Reported     Questioned     Federal
Number        Amount           Outlays        Costs         Share
F-5-C-39        $105,000          $94,154
F-5-C-40         105,000           98,273
F-5-C-41         126,500                0
F-43-D-18      2,300,000        2,159,407
F-43-D-19      2,025,000        2,003,089
F-43-D-20      2,975,000                0
F-44-D-18      2,076,200        2,049,565
F-44-D-19      2,669,000        2,572,242
F-44-D-20      2,794,000                0
F-45-D-18      1,471,200        1,453,045
F-45-D-19      1,338,000        1,165,411    $25,700       $19,275
F-45-D-20      1,000,000                0
F-46-D-17        356,667          259,386
F-46-D-18        365,000          282,473
F-46-D-19        450,005                0
F-47-E-16        507,500          519,658
F-47-E-17        490,000          395,415
F-47-E-18        465,000                0
F-50-R-10        128,196           98,210
F-50-R-11        106,280          102,413
F-50-R-12         87,104                0
F-52-O-6          20,000           15,116
F-52-O-7          20,000            5,547
F-54-D-2          52,900           50,590
F-54-D-3          58,956           42,649
F-54-D-4          60,700                0
F-55-R-2          66,667           66,667
F-55-R-3          66,667           62,837
F-56-R-2          65,333           65,333
F-56-R-3          41,333           41,333
F-57-R-1          13,333           13,333
F-58-R-1          33,333           33,333
F-58-R-2          37,333           37,024
F-59-E-1         300,000                0
F-60-D-1       1,288,491                0
FW-28-O-1         92,000                0




                                 10
                                                            Appendix 1
                                                              Page 2 of 2
             OKLAHOMA DEPARTMENT OF WILDLIFE CONSERVATION
                 FINANCIAL SUMMARY OF REVIEW COVERAGE
                     JULY 1, 2003 THROUGH JUNE 30, 2005
Grant             Grant          Reported     Questioned    Federal
Number           Amount          Outlays        Costs        Share
FWT-1-P-1           12,000               0
W-12-C-44           94,000         102,319
W-32-R-54          110,000          92,986
W-32-R-55          105,400          95,846
W-80-R-43          335,000         302,303
W-80-R-44          323,000         320,389
W-82-R-43          352,000         283,117
W-82-R-44          306,668         271,071
W-110-S-31         487,800         515,584
W-110-S-32         500,000         696,058
W-138-M-20         800,000         857,436
W-138-M-21         940,000         975,816
W-139-M-20         851,000       1,016,988
W-139-M-21         983,000       1,066,816
W-140-M-20         953,000       1,026,637
W-140-M-21       1,000,000       1,169,414
W-141-M-20         400,000         483,307
W-141-M-21         490,000         511,163
W-143-D-17         307,000         224,329
W-143-D-18         365,000         380,894
W-144-M-10         650,000         700,384
W-144-M-11         740,000         800,284
W-148-R-3           40,000          40,000
W-148-R-4           33,333          33,333
W-149-R-3           26,667          26,667
W-151-R-2           42,667          42,667
W-151-R-3           36,000          36,000
W-154-R-1           18,600          16,341
W-154-R-2           30,000          28,768
W-154-R-3           30,000               0
W-155-R-1           53,333          53,333
W-155-R-2           66,667          66,667
W-156-R-1           54,648          43,773
W-156-R-2          133,200               0
W-157-D-1          400,000           6,599
W-158-R-1           80,000               0
Total          $36,400,781     $26,073,099     $25,700       $19,275




                                  11
                                                      Appendix 2


            OKLAHOMA
DEPARTMENT OF WILDLIFE CONSERVATION
            SITES VISITED


                  Headquarters
                 Oklahoma City, OK


                  Regional Offices
           Northeast Region - Porter, OK
         South Central Region – Caddo, OK
           Southeast Region - Caddo, OK
           Southeast Region – Higgins, OK


             Wildlife Management Areas
          Beaver River WMA, Beaver, OK
             Canton WMA, Canton, OK
          Cooper WMA, Woodward, OK
         Ft. Supply WMA, Woodward, OK


                   Fish Hatcheries
       Durant State Fish Hatchery, Caddo, OK
   Holdenville State Fish Hatchery, Holdenville, OK


                   Research Lab
   Oklahoma Fisheries Research Lab, Norman, OK




                          12
                                                                         Appendix 3


                                 OKLAHOMA
                  DEPARTMENT OF WILDLIFE CONSERVATION
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


     Recommendations              Status                     Action Required

A.1, A.2, C.1, and C.2   FWS and Department          Provide a corrective action plan
                         Management do not concur;   that identifies the actions taken or
                         the recommendations are     planned to resolve the finding
                         not resolved and not        and implement the
                         implemented. Additional     recommendations. The plan
                         information is needed.      should also include the target
                                                     completion date and the official
                                                     responsible for implementation
B.1 and B.2              FWS and Department          of each recommendation. Any
                         Management Concurs; the     recommendations that are not
                         recommendations are         implemented at the end of 90
                         resolved, but not           days (after January 21, 2007) will
                         implemented. Additional     be referred to the Assistant
                         information is needed.      Secretary for Policy,
                                                     Management and Budget for
                                                     resolution and/or tracking of
                                                     implementation.




                                     13
